         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report




       Investigation of
       Allegations Concerning
       Environmental Justice Issues
       in EPA Region 4
       Report No. 10-N-0145

       June 14, 2010
Abbreviations

ADEM        Alabama Department of Environmental Management
EPA         U.S. Environmental Protection Agency
OIG         Office of Inspector General
TVA         Tennessee Valley Authority
                       U.S. Environmental Protection Agency 	                                                10-N-0145
                                                                                                          June 14, 2010
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment

Why We Did This Review              Investigation of Allegations Concerning
On October 27, 2009,
                                    Environmental Justice Issues in EPA Region 4
16 allegations involving
environmental justice issues         What We Found
were brought to the attention of
the Acting Regional                 The OIG’s Office of Investigations undertook a detailed review of the allegations
Administrator, U.S.                 to determine whether the OIG had investigative jurisdiction in terms of EPA
Environmental Protection            contracts, assistance agreements, programs, or personnel involvement. Using
Agency (EPA) Region 4,              these criteria, we determined that five allegations merited further investigative
Atlanta, Georgia, with a request    review. Our further investigative review of the five allegations disclosed
that the Office of Inspector        no evidence that EPA contracts, assistance agreements, or programs were
General (OIG) investigate these     involved, or that an EPA employee committed any actionable offense(s). In
matters.                            instances in which we determined that applicable violations were outside of the
                                    OIG’s jurisdiction, we made a professional referral to the appropriate
Background                          investigative entity. In addition, some of the programmatic issues raised may
                                    merit further review and have been forwarded to the OIG’s Office of Program
EPA Administrator Lisa              Evaluation.
Jackson has made
environmental justice one of        Executive Order 12898, Federal Actions To Address Environmental Justice in
her top seven priorities and has    Minority Populations and Low-Income Populations, directs federal agencies to
created an office to promote        make achieving environmental justice part of its mission to the greatest extent
environmental justice for           practicable and permitted by law. The Executive Order states that it is intended
affected groups and                 only to improve the internal management of the executive branch and is not
communities throughout the          intended to, nor does it create any right, benefit, or trust responsibility,
United States. Environmental        substantive or procedural, enforceable at law or equity by a party against the
justice is the fair treatment and   United States, its agencies, its officers, or any person. Consequently there are no
meaningful involvement of all       enforcement provisions for environmental justice guidelines.
people regardless of race, color,
national origin, or income with
respect to the development,
implementation, and
enforcement of environmental
laws, regulations, and policies.

For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100614-10-N-0145.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL



                                          June 14, 2010

MEMORANDUM

SUBJECT:              Investigation of Allegations Concerning
                      Environmental Justice Issues in EPA Region 4
                      Report No. 10-N-0145


FROM:                 Bill A. Roderick
                      Acting Inspector General

TO:                   A. Stanley Meiburg
                      Acting Regional Administrator, Region 4


This is a report on the subject investigation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report represents the opinion of the
OIG and does not represent the final EPA position.

Because this report contains no recommendations, you are not required to respond to this report.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0847
or Associate Deputy Inspector General and Counsel Mark Bialek at (202) 566-0861.
                                                                                          10-N-0145 



Introduction
EPA Administrator Lisa Jackson has made environmental justice one of her top seven priorities
and has created an office to promote environmental justice for affected groups and communities
throughout the United States. Environmental justice is the fair treatment and meaningful
involvement of all people regardless of race, color, national origin, or income with respect to the
development, implementation, and enforcement of environmental laws, regulations, and policies.

On October 27, 2009, 16 allegations involving environmental justice issues were brought to the
attention of the Acting Regional Administrator, U.S. Environmental Protection Agency (EPA)
Region 4, Atlanta, Georgia, with a request that the Office of Inspector General (OIG) investigate
these matters.

According to the Inspector General Act of 1978, as amended, the OIG has broad jurisdiction to
conduct audits and investigations of EPA programs and operations. The OIG’s Office of
Investigations undertook a detailed review of the allegations to determine whether the OIG had
investigative jurisdiction in terms of EPA contracts, assistance agreements, programs, or
personnel involvement.

The OIG determined that five allegations merited further investigative review. We
performed our investigative review from October 27, 2009, through April 27, 2010, focusing
on allegations of environmental justice issues in EPA Region 4. Specifically, we interviewed
the complainants, numerous witnesses, and appropriate government personnel. In addition,
we reviewed pertinent correspondence and other documentation.

Results of Review
Our investigative review of the five allegations disclosed no evidence that EPA contracts,
assistance agreements, or programs were involved, or that an EPA employee committed any
actionable offense(s). In instances in which we determined that applicable violations were
outside of the OIG’s jurisdiction, we made a professional referral to the appropriate investigative
entity for action. In our opinion, adequately enforcing environmental justice guidelines and
combating discrimination is difficult because pertinent federal criminal statutes and civil rights
legislation in this area have not been fully developed. A summary of what we found on the five
allegations reviewed follows.

Coal Ash Disposal, Perry County, Alabama

It was alleged that EPA Region 4 officials failed to properly execute their official duties by not
appropriately considering the environmental justice concerns and potential health hazards
associated with the disposal of coal ash in the Arrowhead landfill.

The requirement and procedures for permitting solid waste disposal facilities are under the
authority of an approved State government program – in this case, the Alabama Department of
Environmental Management (ADEM). Accordingly, EPA was not involved in the process and
does not retain separate authority for this program, negating any federal investigative jurisdiction.


                                                 1

                                                                                         10-N-0145 



ADEM granted the permit for the Tennessee Valley Authority (TVA) to dispose of coal ash in
the Arrowhead landfill. TVA’s selection of the Arrowhead landfill for the disposal of coal ash
met or exceeded all of the criteria established under the Administrative Order of Consent
between EPA and TVA. Specifically, the Arrowhead landfill is constructed with a compacted
clay composite liner, a polyethylene geomembrane liner, a leachate collection system, a
protective cover, and a 100-foot buffer that surrounds the property. Landfill personnel conduct
regular groundwater monitoring, and ADEM regularly inspects the landfill.

Our evaluation of this allegation disclosed no wrongdoing by EPA employees, and we
discovered no other viable criminal, civil, or administrative violations. Accordingly, this
complaint was closed.

Chemical Contamination, McIntosh, Alabama

It was alleged that Olin Corporation violated environmental laws by misrepresenting the amount
of hazardous waste (mercury) stored at its facility, as well as misrepresenting the amount being
shipped offsite. In addition, it was alleged that Olin misrepresented the danger associated with
piles of mercury-laden soil (brine wastes or well sands) on the Olin property and that Olin stated
that the mercury is not leaching into and contaminating the soil and ground water. It was further
alleged that EPA and ADEM are complicit in the misrepresentation.

A full investigation was opened and the complainant provided a total of eight detailed allegations
in this matter. Seven of these allegations dealt with specific soil sample analyses and test
reports. Our investigation determined that these seven allegations were unfounded. The eighth
allegation, regarding the ownership interest in certain property, is not within the OIG’s
investigative jurisdiction. Accordingly, this investigation was closed.

Chemical Contamination, Columbus, Mississippi

It was alleged that the site of a faith-based institution in Columbus, Mississippi, had been
contaminated by creosote from Kerr-McGee Corporation since August 1999. It was also alleged
that false analytical data was submitted regarding the contamination at this site, and that an
unknown substance was illegally disposed of near this site.

After an evaluation of this complaint, we determined that the contaminated areas are undergoing
remediation and that current engineering controls are designed to minimize the potential for
human exposure to contamination. In addition, Kerr-McGee offered the faith-based institution a
$4.5 million settlement. While we noted conflicting sampling results, we found that the alleged
falsified data were never submitted to EPA, negating any OIG investigative jurisdiction. We
referred the allegation of unauthorized disposal of an unknown substance to the EPA Criminal
Investigation Division. No EPA employee or financial resource was involved, negating EPA OIG
investigative jurisdiction in this part of the allegation. Accordingly, this complaint was closed.

Landfill Contamination, Dickson, Tennessee

It was alleged that EPA was mishandling an environmental justice issue by advising an African
American family that its well water was safe to drink, while advising white families that their


                                                 2

                                                                                        10-N-0145 



wells were unsafe and were contaminated with trichloroethylene from the Dickson County
landfill.

An attorney for the complainant was concerned that any investigation into this matter might
harm the complainant’s ongoing civil actions and therefore did not provide information to
support the allegation. Accordingly, this complaint was closed.

Ground Water Contamination, Tallevast, Florida

It was alleged that chemicals leached into the ground water from the site of a former precision-
weapons manufacturing facility, and that residents did not learn of the contamination from either
the manufacturer or a governmental entity for approximately 3 years.

In evaluating the complaint, we determined that the Florida Department of Environmental
Protection would assume responsibility for the site. Accordingly, there is no OIG investigative
jurisdiction because EPA is not involved at the site. We referred all information provided to us
to the State of Florida OIG for investigation. Accordingly, this complaint was closed.

Prior Reports Issued by OIG on Environmental Justice
Executive Order 12898, Federal Actions to Address Environmental Justice in Minority
Populations and Low-Income Populations, was signed on February 11, 1994. The Executive
Order directs all federal agencies to implement environmental justice into its programs as
follows: “To the greatest extent practicable and permitted by law . . . each Federal agency shall
make achieving environmental justice part of its mission by identifying and addressing, as
appropriate, disproportionately high and adverse human health or environmental effects of its
programs, policies, and activities on minority populations and low-income populations in the
United States.” EPA OIG issued two prior reports on environmental justice:

   •	 EPA Needs to Conduct Environmental Justice Reviews of Its Programs, Policies, and
      Activities (Report No. 2006-P-00034, September 18, 2006,
      http://www.epa.gov/oig/reports/2006/20060918-2006-P-00034.pdf)

   •	 EPA Needs to Consistently Implement the Intent of the Executive Order on 

      Environmental Justice (Report No. 2004-P-00007, March 1, 2004, 

      http://www.epa.gov/oig/reports/2004/20040301-2004-P-00007.pdf). 


In the 2006 report, the OIG found that EPA senior management had not sufficiently directed
program and regional offices to conduct environmental justice reviews in accordance with
Executive Order 12898. OIG conducted a survey that showed the majority of respondents
reported their programs or offices had not performed environmental justice reviews. The
respondents expressed a need for further guidance to conduct reviews, including protocols, a
framework, or additional directions. OIG concluded that until these program and regional
offices performed environmental justice reviews, the Agency could not determine whether its
programs cause disproportionately high and adverse human health or environmental effects on
minority and low-income populations.


                                                3

                                                                                            10-N-0145 



We made four recommendations to EPA to address these issues. We recommended that EPA:
(1) require program and regional offices to determine where environmental justice reviews are
needed and establish a plan to complete them; (2) ensure that environmental justice reviews
determine whether EPA programs, policies, and activities may have a disproportionately high
and adverse health or environmental impact on minority and low-income populations; (3)
develop specific environmental justice review guidance that includes protocols, a framework, or
directions; and (4) designate a responsible office to compile the results of environmental justice
reviews and make recommendations to EPA senior leadership. EPA agreed with our
recommendations and established milestones for completing those actions. In January 2008,
EPA reported completing each corrective action in response to the recommendations. Corrective
actions included the creation of guidance for conducting environmental justice reviews and the
formation of a workgroup representing programs and regions to develop environmental justice
action plans.

In our 2004 review, we reported on how EPA was integrating environmental justice into its
operations. We concluded that EPA had not fully implemented the Executive Order and was not
consistently integrating environmental justice into its day-to-day operations at that time. We
found that EPA had not identified minority and low-income communities or defined the term
“disproportionately impacted.” Moreover, in 2001, EPA restated its commitment to
environmental justice in a manner that did not emphasize minority and low-income populations,
which we believed was the intent of the Order. In the absence of environmental justice
definitions, criteria, or standards from EPA, many regional and program offices individually took
steps to implement environmental justice policies. The result was inconsistency in determining
environmental justice communities across EPA regions and programs. Thus, the implementation
of environmental justice actions was dependent, in part, on where a person lived.

We made 12 recommendations to EPA to address the issues we raised. Four key
recommendations were: (1) reaffirm the Executive Order as a priority; (2) establish specific
timeframes for developing definitions, goals, and measurements; (3) develop a comprehensive
strategic plan; and (4) determine if adequate resources are being applied to implement
environmental justice. EPA disagreed with 11 of the 12 recommendations. EPA did agree to
perform a comprehensive study of program and regional offices’ funding and staffing for
environmental justice to ensure that adequate resources are available to fully implement its
environmental justice plans. In May 2004, EPA issued its report, Environmental Justice
Program Comprehensive Management Study, conducted by a contractor.

Conclusion
Executive Order 12898 directs federal agencies to make achieving environmental justice part of
its mission to the greatest extent practicable and permitted by law. The Executive Order states
that it is intended only to improve the internal management of the executive branch and is not
intended to, nor does it create any right, benefit, or trust responsibility, substantive or procedural,
enforceable at law or equity by a party against the United States, its agencies, its officers, or any
person. Consequently there are no enforcement provisions for environmental justice guidelines.




                                                   4

                                                                              10-N-0145


                                                                            Appendix A

                                    Distribution

Office of the Administrator
Acting Regional Administrator, Region 4
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Region 4
Acting Inspector General




                                              5

